FILED

NOT FOR PUBLICATION

JUL 8 2021

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANGELA MICHELLE MORELLI,
Plaintiff-Appellant,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 20-16506
D.C.No. l:19-cv-00088-JMS-WRP

v.
MEMORANDUM*
JOSHUA B. HYMAN; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Hawaii
J. Michael Seabright, District Judge, Presiding
Submitted June 21, 2021**
Before:

SILVERMAN, WATFORD, and VANDYKE, Circuit Judges.

Angela Michelle Morelli appeals pro se from the district court’s judgment
dismissing her 42 U.S.C. § 1983 action arising out of her child custody
proceedings. We have jurisdiction under 28 U.S.C. § 1291. We review de novo a
dismissal under Federal Rule of Civil Procedure 12(b)(6). Dougherty v. City of

*
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Covina, 654 F.3d 892, 897 (9th Cir. 2011). We affirm.
The district court properly dismissed Morelli’s claims against Hyman
because Morelli failed to allege facts sufficient to show that he is a state actor. See
George v. Pac.-CSC Work Furlough, 91 F.3d 1227, 1229 (9th Cir. 1996) (plaintiff
alleging infringement of constitutional rights by private parties must show that the
infringement constitutes state action).
The district court properly dismissed Morelli’s claims against the County of
Maui as time-barred. See Haw. Rev. Stat. § 657-7 (two-year statute of limitations
for personal injury actions); Jones v. Blanas, 393 F.3d 918, 926-27 (9th Cir. 2004)
(noting that, “for actions under 42 U.S.C. § 1983, courts apply the forum state’s
statute of limitations for personal injury actions”).
The district court properly dismissed Morelli’s claims against Hawaii and
Hawaii judges as barred by the Eleventh Amendment and judicial immunity,
respectively. See Franceschi v. Schwartz, 57 F.3d 828, 831 (9th Cir. 1995) (“The
Eleventh Amendment bars suits which seek either damages or injunctive relief
against a state, an arm of the state, its instrumentalities, or its agencies.” (citation
and internal quotation marks omitted)); Ashelman v. Pope, 793 F.2d 1072, 1075-76
(9th Cir. 1986) (en banc) (judges are immune from suit when performing judicial
acts).
The district court properly dismissed Morelli’s claims against the United

2

20-16506

States as frivolous because Morelli’s claims lacked any arguable basis in law or
fact. See Neitzke v. Williams, 490 U.S. 319, 325 (1989) (a “frivolous” claim lacks
an arguable basis either in law or in fact; the “term ‘frivolous’ ... embraces not
only the inarguable legal conclusion, but also the fanciful factual allegation”).
The district court did not abuse its discretion in denying further leave to
amend because amendment would have been futile. See Gordon v. City of
Oakland, 627 F.3d 1092, 1094-95 (9th Cir. 2010) (setting forth standard of review
and explaining that dismissal without leave to amend is proper when amendment
would be futile).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
Morelli’s motion for leave to file multiple reply briefs (Docket Entry No. 34)
is granted. The Clerk will file the reply briefs submitted at Docket Entry Nos. 30
to 33.

AFFIRMED.

3

20-16506

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 30 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ANGELA MICHELLE MORELLI,
Plaintiff - Appellant,
v.

No. 20-16506
D.C.No. 1:19-CV-00088-JMS-WRP
U.S. District Court for Hawaii,
Honolulu

JOSHUA B. HYMAN; et al.,
MANDATE
Defendants - Appellees.

The judgment of this Court, entered July 08, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: David J. Vignol
Deputy Clerk
Ninth Circuit Rule 27-7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII

ANGELA MICHELLE MORELLI,
Plaintiff,
vs.
JOSHUA B. HYMAN, ET AL.,

Civ. No. 19-00088 JMS-WRP
ORDER GRANTING
DEFENDANTS’ MOTIONS TO
DISMISS PLAINTIFF’S SECOND
AMENDED COMPLAINT (ECF
NO. 66), ECF NOS. 71, 93, 95,104

Defendants.

ORDER GRANTING DEFENDANTS* MOTIONS TO DISMISS
PLAINTIFF’S SECOND AMENDED COMPLAINT (ECF NO. 66), ECF
NOS. 71. 93.95,104
I. INTRODUCTION
Defendants the State of Hawaii (the “State”), the United States of
America (the “United States”), the County of Maui (the “County”), and Joshua B.
Hyman (“Hyman”) each filed a motion to dismiss pro se Plaintiff Angela Michelle
Morelli’s (“Plaintiff’) Second Amended Complaint (“SAC”). ECF Nos. 71, 93,
95,104. For the reasons set forth below, the Motions to Dismiss are GRANTED.
And because amendment would be futile, the SAC is dismissed without leave to
amend.
Ill
III

App-erAoc B>

H. BACKGROUND
A.

Factual Background
On February 20, 2019, Plaintiff filed a Complaint against Hyman

alleging claims pursuant to 42 U.S.C. § 1983 for violation of unspecified
constitutional and civil rights in connection with a custody dispute involving their
minor child,1 as well as additional federal and state law claims. ECF No. 1 at
PagelD #1-4. On June 28, 2019, this court granted Hyman’s Motion to Dismiss
the Complaint, dismissing Plaintiffs § 1983 claims with leave to amend and
dismissing all other federal claims without leave to amend (the “June 28 Order”).
ECF No. 31. As set forth in the June 28 Order, Plaintiffs § 1983 claims were
deficient, in part, because she failed to allege facts showing that Hyman acted
under color of state law. Id. at PagelD #503-06.
On July 25, 2019, Plaintiff filed a First Amended Complaint (“FAC”)
asserting § 1983 claims against both Hyman and the State. ECF No. 32. And
although the FAC did not name any other defendants, it alleged wrongdoing by
three state judges in connection with judicial proceedings over which they
presided. On January 16, 2020, this court granted Hyman’s and the State’s
Motions to Dismiss the FAC (the “January 16 Order”). ECF No. 63. The court
granted Plaintiff “leave to amend her complaint only to assert, if possible, a § 1983

Plaintiff and Hyman are the parents of “ABH,” their young son.
2

claim for prospective injunctive relief against an individual non-judicial state
official and to reassert her state-law claims.” Id. at PagelD #1054 (emphasis
added). Plaintiffs § 1983 claims against Hyman, the State, and the three statecourt judges were dismissed without leave to amend. Id. at PagelD #1057.
On February 17, 2020, Plaintiff filed a Second Amended Complaint
(“SAC”) asserting claims pursuant to § 1983 and state law against Hyman, the
United States, the County, County officials, the State, and State officials.2 ECF
No. 66. The SAC is a rambling, confusing narrative replete with vague,
conclusory allegations referencing hardships Plaintiff has faced over several years
stemming from state-court temporary restraining order proceedings and the
custody dispute, as well as commentary on the state of society, the judicial system,
and law enforcement. With regard to the State officials, the SAC alleges:
Honorable Richard Bissen was let go of his coverups,
although I didn’t know at the time when I was told by
[Judge] Poleman to send my complaint to Bissen.
[T]he five lawyers assigned to represent The Attorney
General Claire [sic] Connors, didn’t even stay current in
the new Federal regulations of Certificate of Service.
I told [Judge] Poleman out loud in court, that he was
breaking my Constitutional Rights and Denied all my
2 Although the SAC does not name County officials, the State, or State officials as
Defendants in the caption, the body of the SAC includes references to certain County officials
and state judges and seeks relief from “[t]he State of Hawaii and all the government actors listed
above.” ECF No. 66 at PagelD #1064,1066-68, 1070. Thus, the court liberally construes the
SAC as alleging claims against County officials, the State, and State officials.
3

fact based evidence over hearsay and false testimony
from a Playboy Model, months before the final Custody
Order. I submitted the DVD’s of Judge Tanaka not
hearing or seeing any evidence before allowing my rapist
to come to my house and pick up my son. The hearing of
Judge Matson Kelly who did not hear any evidence or
testimony dissolving what little protection I had and
entirely endangering my son who is currently in danger.
All three Judges broke my Constitutional Rights and
Violated my Due Process rights entirely resulting in the
traffic circle of closed doors in the middle of the ocean,
and ... my parental rights were terminated because the
protocol and procedure in which the Judges take their
oath, was not followed and the Absolute Immunity
blocks my case from being heard is
UNCONSTITUTIONAL IN ITS ENTIRETY.
The State of Hawaii and all the government actors listed
above are liable for the irreparable harm and damages
caused by violation of [Plaintiff] and ABH’s
Constitutional and Hawaii State Laws.
ECF No. 66 at PagelD #1066-68, 1070.
As to Hyman, the SAC alleges that he “continues to violate
[Plaintiffs] constitutional rights in joint action during the Hyman vs Morelli, by
using false testimony, false and altered evidence, in conspiracy as preponderance
evidence on government property during all court proceedings with [Plaintiff].”
Id. at PagelD #1069.
Against the County and County officials, the SAC alleges:
The County of Maui last year let go the Prosecutor Kim
who was involved in my case, due to how he treated
Domestic Violence Case and Charlie Scott Murder. In
which the MPD threw out at least 60 pages of evidence,
4

probably some including Defendant Joshua Hyman. A
County who had to let go of Top Civil lawyer Patrick
Wong for Domestic Violence.
Hyman was working with the [Maui Police Department
(“MPD”)] who didn’t list anything on their report nor
listed ABH as being at the crime scene.
[MPD] Officer Omellas badge #15391 and other MPD
Officers name missing from the report stated nothing
about domestic violence in the report and had failed to
perform a victimless investigation when [Plaintiff] called
911 February 21, 2016, falls in line with the intertwined
relationship between Hyman and MPD.
Id at PagelD #1066, 1068-69.
And as to federal officials, the SAC alleges that Plaintiff “turned
[Hyman] over to the [Drug Enforcement Agency (“DEA”)] and the non existent
[sic] [Federal Bureau of Investigation], turns out the DEA is friends with him and
[Hyman’s] formerly incarcerated friend he sells cocaine to.” Id. at PagelD #1068.
Other references to the United States include vague allegations that the United
States is “violating the Constitution by allowing Absolute Immunity,” and “is
causing irreparable harm” to Plaintiff “because [Plaintiffs] Constitutional rights
are a 100 percent Fraud.” Id. at PagelD #1064.
As best as the court can determine, the SAC attempts to assert § 1983
claims for violation of Plaintiff s constitutional rights to due process and against
involuntary servitude as protected by the Fifth, Thirteenth, and/or Fourteenth
Amendments, and claims for violation of unspecified state laws. Id. at PagelD
5

#1061,1070. Plaintiff seeks damages of at least $1 million and a jury trial. Id. at
PagelD #1069-70.
B.

Procedural Background
On March 3, 2020, the State filed its Motion to Dismiss the SAC.

ECF No. 71. On April 6, 2020, Plaintiff filed an Opposition, and on April 20,
2020, the State filed its Reply. ECF Nos. 88, 91.
On May 8 and 11, 2020, respectively, the United States and County
filed Motions to Dismiss the SAC. ECF Nos. 93, 95. On May 13, 2020, the court
elected to defer ruling on the State’s motion until all three motions were briefed.
See ECF No. 99. Plaintiff filed Oppositions to both motions on June 1, 2020, and
the United States and the County filed their Replies on June 8, 2020. ECF Nos.
100-03. On June 30, 2020, Plaintiff filed an additional “Response in Opposition”
to the United States’ motion. ECF No. 107.
On June 9, 2020, Hyman filed a Motion to Dismiss the SAC. ECF
No. 104. Plaintiff filed an Opposition on June 30, 2020. ECF No. 106. And on
July 2, 2020, Plaintiff filed supplemental exhibits to ECF Nos. 106 and 107. ECF
No. 108. Pursuant to Local Rule 7.1(c), the court finds these motions suitable for
disposition without a hearing.
Ill
III
6

III. STANDARDS OF REVIEW
A.

Rule 12(b)(6)
Federal Rule of Civil Procedure 12(b)(6) permits a motion to dismiss

for “failure to state a claim upon which relief can be granted.” “To survive a
motion to dismiss, a complaint must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007)); see also Weber v. Dep’t of Veterans Affairs, 521 F.3d 1061, 1065 (9th Cir.
2008). This tenet—that the court must accept as true all of the allegations
contained in the complaint—“is inapplicable to legal conclusions,” and
“[t]hreadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal, 556 U.S. at 678 (citing Twombly,
550 U.S. at 555). Rather, “[a] claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Id. (citing Twombly, 550 U.S.
at 556). Factual allegations that only permit the court to infer “the mere possibility
of misconduct” or “unadorned, the defendant-unlawfully-harmed me
accusation[s]” fall short of meeting this plausibility standard. Id. at 679; see also
Moss v. U.S. Secret Serv., 572 F.3d 962, 969 (9th Cir. 2009).

7

B.

Pro Se Pleadings
Because Plaintiff is proceeding pro se, the court liberally construes the

SAC and resolves all doubts in her favor. See Erickson v. Pardus, 551 U.S. 89, 94
(2007); Hebbe v. Pliler, 627 F.3d 338, 342 (9th Cir. 2010) (citations omitted). The
court must grant leave to amend if it appears that Plaintiff can correct the defects in
her SAC, Lopez v. Smith, 203 F.3d 1122, 1130 (9th Cir. 2000), but if a claim or
complaint cannot be saved by amendment, dismissal with prejudice is appropriate.
Sylvia Landfield Tr. v. City ofL.A., 729 F.3d 1189, 1196 (9th Cir. 2013); see also
Leadsinger, Inc. v. BMG Music Pub., 512 F.3d 522, 532 (9th Cir. 2008) (reiterating
that a district court may deny leave to amend for, among other reasons “repeated
failure to cure deficiencies by amendments previously allowed ... [and] futility of
amendment”) (citation omitted).
IV. DISCUSSION
Despite being granted “leave to amend her complaint only to assert, if
possible, a § 1983 claim for prospective injunctive relief against an individual non­
judicial state official and to reassert her state-law claims,” ECF No. 63 at PagelD
#1054 (emphasis added), the SAC attempts to allege § 1983 claims against the
State and State officials, Hyman, the County and County officials, and the United
States. The court first addresses the claim Plaintiff was granted leave to amend,
and then turns to claims for which she was not granted leave to amend. For the
8

reasons discussed below, the SAC is dismissed because Plaintiff again fails to state
a plausible federal claim.
A.

Claim That the Court Granted Plaintiff Leave to Amend
The January 16 Order granted Plaintiff leave to amend her pleading to

state a § 1983 claim for prospective injunctive relief against any non-judicial state
official.3 See ECF No. 63 at PagelD #1054. Construing the FAC liberally, the
January 16 Order found that Plaintiff was seeking “injunctive relief against the
State for the continued deprivation of her parental/custodial rights as to ABH,”
which allegedly resulted from violations of Plaintiff s constitutional due process
rights. Id. at PagelD #1051. But because the FAC failed to “allege facts showing
how an individual non-judicial state official is violating Plaintiffs right to due
process,” the claim was dismissed with leave to amend. Id. at PagelD #1052.
Here, at most, the SAC alleges that (1) “state actors staking [sic]
Federal funding and not returning phone calls, glad handing and patting themselves
on the back, but can’t even do the very basics such as voiding a California Driver’s
License at the [Department of Motor Vehicles] when turned in to get a Hawaii

3 To state a claim under 42 U.S.C. § 1983, Plaintiff must allege two essential elements:
(1) that a right secured by the Constitution or laws of the United States was violated, and (2) that
the alleged deprivation was committed by a person acting under color of state law. West v.
Atkins, 487 U.S. 42,48 (1988); see OSU Student Alliance v. Ray, 699 F.3d 1053, 1061 (9th Cir.
2012).
9

DL ... but somehow years later renewed my California license on line;” (2) “five
lawyers assigned to represent The Attorney General Claire [sic] Connors, didn’t
even stay current in the new Federal regulations of Certificate of Service;” and
(3) “all the government actors listed above are liable [f]or the irreparable harm and
damages caused by violation of Morelli and ABH’s Constitutional and Hawaii
State Laws.” ECF No. 66 at PagelD #1066, 1070.
But nowhere in the SAC does Plaintiff name any non-judicial state
official as a defendant, or allege any specific action or failure to act by a non­
judicial state official demonstrating an ongoing violation of Plaintiff s due process
rights or any other right under the Constitution or a federal statute. Nor does the
SAC show how these allegations caused the alleged “continued deprivation of
[Plaintiffs] parental/custodial rights as to ABH.” In short, the SAC simply fails to
allege a plausible § 1983 claim for prospective injunctive relief against a non­
judicial state official. And given Plaintiffs multiple attempts to assert such a
claim, it is apparent that granting further leave to amend would be futile.
Plaintiffs § 1983 claim for prospective injunctive relief against a non-judicial state
official is DISMISSED without leave to amend.
B.

Claims That Plaintiff Did Not Have Court Leave to Amend
The January 16 Order granted Plaintiff “leave to amend her complaint

only to assert, if possible, a § 1983 claim for prospective injunctive relief against
10

an individual non-judicial state official and to reassert her state-law claims.” ECF
No. 63 at PagelD #1054 (emphasis added). Plaintiffs § 1983 claims against
Hyman, the State, and the three state-court judges were dismissed without leave to
amend. Id. at PagelD #1057.
The SAC, however, patently ignores the court’s ruling. Construed
liberally, the SAC attempts to allege federal-law claims for damages and
prospective injunctive relief against Hyman, the State, state-court judges, the
County, County officials, and the United States. These claims are DISMISSED for
exceeding the scope of the court’s leave to amend. Even though lack of court
leave is reason enough to dismiss all remaining federal claims, the court addresses
the merits of such claims below.
1.

Section 1983 Claims Against the State and State Officials
The January 16 Order determined that “Plaintiffs § 1983 claim

against the State is barred by Eleventh Amendment immunity,” and Plaintiffs
§ 1983 claims against state judges Keith E. Tanaka, Frederick Matson Kelley, and
Lloyd Poleman are barred by the doctrine of absolute judicial immunity. ECF No.
63 at PagelD #1050, 1054. To the extent the SAC attempts to reallege these
claims, they are again DISMISSED without leave to amend for the reasons set
forth in the January 16 Order.

11

The SAC may be attempting to allege a § 1983 claim against Judge
Bissen, who is referenced solely in his capacity as a state-court judge. See ECF
No. 66 at PagelD #1066 (referring to the “Honorable Richard Bissen”). But as
with the other state-court judges, to the extent Judge Bissen is sued for any action
taken or any failure to act in his judicial capacity, he is likewise absolutely immune
from suit. See, e.g., ECF No. 63 at PagelD #1052-54 (discussing judicial
immunity and citing cases). Thus, Plaintiffs § 1983 claim against Judge Bissen is
DISMISSED without leave to amend.
2.

Section 1983 Claim Against Hyman
The January 16 Order also found that because the FAC failed to allege

facts showing that Hyman was a state actor or acted under color of state law,
Plaintiff “failed to state a plausible § 1983 claim against Hyman for violation of
Plaintiffs constitutional civil rights.” Id. at PagelD #1049; see also id. at PagelD
#1046-49. And given the court’s prior guidance regarding amendment of this
claim, and the facts presented in both the Complaint and FAC, the January 16
Order found it “apparent that Plaintiff cannot allege facts to state a § 1983 claim
against Hyman.” Id. at PagelD #1049. Thus, the court dismissed Plaintiff s
§ 1983 claim against Hyman with prejudice. Id.
Nevertheless, the SAC again names Hyman as a defendant and
attempts to assert a § 1983 claim against him. See ECF No. 66 at PagelD #106812

69 (“As far as Joshua Hyman working [in conjunction] with state actors the [Maui
Police Department (”MPD”)], for one how do you think he’s actually getting away
with selling drugs,... and the before and after pictures of police assistance are
beyond a reasonable doubt that Joshua Hyman was working with the MPD who
didn’t list anything on their report nor listed ABH as being at the crime scene....
Hyman continues to violate Morelli’s constitutional rights in joint action during the
Hyman vs Morelli, by using false testimony, false and altered evidence, in
conspiracy as preponderance evidence on government property during all court
proceedings with Morelli.”).
But the SAC fails to allege any non-conclusory fact that would change
the court’s prior analysis. Because the SAC fails to allege facts showing that
Hyman acted under color of state law, Plaintiff’s § 1983 claim against Hyman is
again DISMISSED without leave to amend for the reasons set forth in the January
16 Order.
3.

Section 1983 Claims Against the County and County Officials
The SAC realleges that MPD Officer Omellas (“Omellas”) and

unnamed MPD officers “stated nothing about domestic violence in the report and
had failed to perform a victimless investigation when [Plaintiff] called 911
February 21, 2016, falls in line with the intertwined relationship between Hyman
and MPD.” ECF No. 66 at PagelD #1069; see also FAC, ECF No. 32 at PagelD
13

#517. Although the court has understood this allegation to be an attempt to show
that Hyman is a state actor, construed liberally, it may also be the basis of an
attempt to allege a § 1983 claim against the County and/or Omellas. To the extent
the SAC alleges a § 1983 claim based on this allegation, the County contends that
Plaintiff’s § 1983 claim is barred by the statute of limitations.4 The court agrees.5
Plaintiff’s § 1983 claim is subject to a two-year statute of limitations.
See Birdv. Dep’t ofHuman Servs., 935 F.3d 738, 743 (9th Cir. 2019) (“Because 42
U.S.C. § 1983 does not contain its own statute of limitations, ‘[ajctions brought

4 The County also contends that Plaintiffs claims are barred by the Rooker-Feldman
doctrine. ECF No. 95-1 at PagelD #1577. The Rooker-Feldman doctrine, which derives from
Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923) and District of Columbia Court ofAppeals v.
Feldman, 460 U.S. 462 (1983), bars a federal court from exercising jurisdiction over an action
that is essentially “a de facto appeal from a state court judgment.” Kougasian v. TMSL, Inc., 359
F.3d 1136,1139 (9th Cir. 2004).
The January 16 Order found that based on the record and the parties’ briefing, it could
not discern whether the underlying patemity/custody and temporary restraining order actions are
final or ongoing. See ECF No. 63 at PagelD #1044-45. Thus, the court determined that based on
the record of this case, it “cannot conclude at this time that... the Rooker-Feldman doctrine
applies to divest this court of subject-matter jurisdiction.” Id. at PagelD #1045. Here, the
County argues that Plaintiff is seeking relief from a state court judgment, but it did not provide
any state-court records clarifying the status of the underlying state-court actions. Thus, for the
reasons set forth in the January 16 Order, the court again cannot conclude that the RookerFeldman doctrine divests the court of subject-matter jurisdiction.
5 “A statute-of-limitations defense, if ‘apparent from the face of the complaint,’ may
properly be raised in a motion to dismiss.” Seven Arts Filmed Entm’t Ltd. v. Content Media
Corp., 733 F.3d 1251,1254 (9th Cir. 2013) (quoting Conerly v. Westinghouse Elec. Corp., 623
F.2d 117,119 (9th Cir. 1980)); see also Rivera v. Peri & Sons Farms, Inc., 735 F.3d 892,902
(9th Cir. 2013) (“When an affirmative defense is obvious on the face of a complaint, however, a
defendant can raise that defense in a motion to dismiss.”) (citing Cedars-Sinai Med. Ctr. v.
Shalala, 111 F.3d 1126,1128-29 (9th Cir. 1999)). That said, “a complaint cannot be dismissed
unless it appears beyond doubt that the plaintiff can prove no set of facts that would establish the
timeliness of the claim.” Supermail Cargo, Inc. v. United States, 68 F.3d 1204,1206-07 (9th
Cir. 1995) (quotation marks and citations omitted).
14

pursuant to 42 U.S.C. § 1983 are governed by the forum state’s statute of
limitations for personal injury actions.’ In Hawaii, the statute of limitations for
personal injury actions is two years.”) (internal citations omitted). Plaintiff first
asserted her § 1983 claim against the County in the SAC, which was filed on
February 19, 2020. Even assuming that this claim would relate back to the filing
of her original Complaint (which the court is not finding), Plaintiff filed her
original Complaint on February 20, 2019, approximately three years after the 911
call. Plaintiff was present when the MPD officers responded to her 911 call and
was aware at that time of the officers’ alleged failure to perform a specific type of
investigation. And none of Plaintiff s pleadings remotely suggests any reason to
toll the two-year statute of limitations. Thus, this claim is DISMISSED as
untimely.
The SAC also alleges that the County “let go” “Prosecutor Kim” and
“Top Civil lawyer Patrick Wong.” ECF No. 66 atPagelD #1066. But the SAC
utterly fails to allege how such events are related to her claim of injury arising
from the underlying custody dispute or otherwise caused the County or a County
- official to violate Plaintiffs rights under the United States Constitution or a federal
statute. And although Plaintiff contends in her Opposition that the County is
responsible for the actions of the MPD, Prosecutor Kim, and Custody Evaluator
Jamie Baldwin, see ECF No. 101 at PagelD #1626, the SAC fails to allege any
15

facts showing that any of these or other non-judicial County officials is currently
violating Plaintiffs Constitutional rights. Thus, the SAC fails to allege a § 1983
claim for prospective injunctive relief.
Given the statute of limitations and Plaintiffs multiple attempts to
allege facts to support a plausible § 1983 claim, granting further leave to amend
would be futile. Thus, Plaintiffs § 1983 claim against the County and County
officials is DISMISSED without leave to amend.
4.

Claims Against the United States
The SAC’s vague, conclusory allegation—that Plaintiff “turned

[Hyman] over to the ‘DEA’ and the non existent [sic] FBI, turns out the DEA is
friends with him and [Hyman’s] formerly incarcerated friend he sells cocaine to”—
fails to allege any facts whatsoever to support a federal claim against the United
States. This allegation is wholly untethered to both the underlying temporary
restraining order proceedings and the custody dispute. Moreover, it fails to show
that a federal DEA or FBI agent violated Plaintiffs due process rights or any other
right protected by the constitution or federal statute, or is otherwise causing the
“continued deprivation of her parental/custodial rights as to ABH.”
Similarly, the SAC’s vague, conclusory allegations—that the United
States itself violates the Constitution because federal law allows absolute immunity
and is liable to Plaintiff for the resulting irreparable harm, ECF No. 66 at PagelD
16

#1064—have no factual or legal basis. In short, Plaintiffs claim against the
United States is frivolous on its face. See Neitzke v. Williams, 490 U.S. 319, 325
(1989) (“[A] complaint... is frivolous where it lacks an arguable basis either in
law or in fact.”).
Because Plaintiffs claim against the United States is frivolous and
completely unrelated to her underlying claim of violation of her due process rights
resulting in the ongoing deprivation of parental/custodial rights to her son, granting
leave to amend would be futile. Thus, Plaintiffs claim against the United States is
DISMISSED without leave to amend.
C.

Supplemental Jurisdiction Over State-Law Claims
To the extent the SAC asserts state-law claims, for example,

intentional and/or negligent infliction of emotional distress, this court could only
have supplemental jurisdiction over such claims. But under 28 U.S.C.
§ 1367(c)(3) “district courts may decline to exercise supplemental jurisdiction over
[state-law claims]... if... the district court has dismissed all claims over which it
has original jurisdiction[.]”
“[W]hen deciding whether to exercise supplemental jurisdiction, ‘a
federal court should consider and weigh in each case, and at every stage of the
litigation, the values of judicial economy, convenience, fairness, and comity.’” City
of Chicago v. Int’l Coll, ofSurgeons, 522 U.S. 156, 173 (1997) (quoting Carnegie
17

Mellon Univ. v. Cohill, 484 U.S. 343, 350 (1988)). “[I]n the usual case in which
all federal-law claims are eliminated before trial, the balance of factors will point
towards declining to exercise jurisdiction over the remaining state-law claims.”
Acri v. Varian Assocs., Inc., 114 F.3d 999, 1001 (9th Cir. 1997) (en banc) (quoting
Carnegie Mellon Univ., 484 U.S. at 350 n.7).
Here, there is no basis for diversity jurisdiction and Plaintiffs § 1983
claims are dismissed without leave to amend. Thus, pursuant to § 1367(c), the
court declines supplemental jurisdiction over Plaintiffs state-law claims and
DISMISSES them without prejudice.
V. CONCLUSION
Based on the foregoing, Defendants’ Motions to Dismiss are
GRANTED. Plaintiffs § 1983 claims against all Defendants are DISMISSED
with prejudice and her state-law claims are DISMISSED without prejudice. The
Clerk of Court is DIRECTED to close this case.
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, July 8, 2020.
■ ►T6S OIS7-,,

/s/ J. Michael Seabright
J. Michael Seabright
Chief United States District Judge

Morelli v. Hyman, Civ. No. 19-00088 JMS-WRP, Order Granting Defendants’ Motions to
Dismiss Plaintiff’s Second Amended Complaint (ECF No. 66), ECF Nos. 71, 93,95,104
18

.*

*

i-

t

x

• ' %

1

FILED

3

aiTiwefi rh«P

YANAGIDA & ASSOCIATES

Ilk

JOY M. YANAGIDA, ESQ. #5494
Maluhia Professional Center
33 Maluhia Drive, Suite 201
Wailuku, Maui, Hawai’i 96793
Phone: (808) 244-1000/ Fax: (808) 244-8881

i

3

0)
3

■E to
ss .S'

.<£ £
• *- o
-C <+-

Attorneys for Joshua Hyman
IN THE FAMILY COURT OF THE SECOND CIRCUIT
STATE OF HAWAIT

~JO
■

^

O

• (57®
uJi

)

FC-PNo. 16-1-0098

^ u

•Q

)

Petitioner,
vs.

ANGELA MORELLI,

)
)
)

^ "c

ORDER RE: CUSTODY, VISITATION,
SUPPORT AFTER VOLUNTARY
ESTABLISHMENT OF PATERNITY

£ ro

)

Respondent.

)
)

Trial: July 18, 2017 at 8:30 a.m.
Honorable Lloyd A. Poelman

ORDER RE: CUSTODY, VISITATION, SUPPORT AFTER
VDT .T INTARY ESTABLISHMENT OF PATERNITY
A trial was held before the Honorable Lloyd A. Poelman on July 18, 2017 at 8:30 a.m. on
(1) Joshua Hyman’s Motion for Pre Decree Relief re: Custody and Visitation filed 9/8/16; and (2)
Angela Morelli’s Motion for Pre Decree Relief filed 9/9/16. Present was Petitioner Joshua
Hyman (“Joshua” or “Father”), his attorney Joy Yanagida, Esq., and Respondent Angela Morelli
(“Angela” or “Mother”), pro se.
The subject child of this action is ABH, bom 2015.
BASED UPON A PREPONDERANCE OF THE EVIDENCE, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that:
1.

Paternity. Father is the legal and natural father of ABH.

2.

Custody. Father is awarded sole legal and sole physical custody over ABH.

Mother is awarded supervised visitation of up to 3 times/week and up to 2 hours/visitation.
Parents and Children Together (“PACT”) or Child and Family Services (“CFS”) shall provide
supervision. If neither is available, there shall be another qualified supervisor. The supervised
visitation shall be at Mother’s expense.

JUL 3 1 2017

t:

.3
O

O

S:\F\Hyman, Joshua\Ptdgs\39-CustodyOrder\CustodyOrder.v!2-jy.wpd

JOSHUA HYMAN,

A

%

©

\

C__,

3
S3 O
^ o_

J

o
o

0)
CO
l—

_0>

■s::

a

3*J

i.

Neither parent shall discuss any court-related issues or parenting issues with or in

front of the minor child.
j.

Neither parent shall ask the child to “spy on” the other parent or the other parent’s

lifestyle or household nor ask any detailed “probing” questions about the other parent or lifestyle
or household of the other parent. However, this shall not be construed to prevent each parent
from asking the child about their activities or their day to day life, e.g. fishing, camping, school,
„

and homework completion.
k.

Neither parent shall ask the child to “keep secrets from” the other parent or ask or

encourage the child to lie to the other parent about events or persons the child experience during
a visit with the other parent, grandparent, or relative.

AUG

DATED: Wailuku, Maui, Hawai’i,

i

0

it;?

Honorable Llojra'A.Vol
APPROVED AS TO FORM:

rf

"ii

Angela Morelli, pro se

Joshua Hyman vs. Angela Morelli, FC-P 16-1-0098; Order Re: Custody, Visitation, Support after
Voluntary Establishment of Paternity
3

